   KENNETH LEVENTHAL’S BILLINGS FOR DUE DILIGENCE
SERVICES UNDER CONTRACT 700-90-0014 AND UNSIGNED LETTER
             AGREEMENT DATED MAY 29, 1992



                    Audit Report No. 99-029
                         July 16, 1999




                   OFFICE OF AUDITS

             OFFICE OF INSPECTOR GENERAL
                                   TABLE OF CONTENTS

BACKGROUND                                                                                 2

OBJECTIVE, SCOPE, AND METHODOLOGY                                                          4

RESULTS OF AUDIT                                                                           5

UNALLOWABLE HOURLY LABOR BILLINGS                                                          6

UNALLOWABLE OUT-OF-POCKET EXPENSES                                                        11

CONCLUSION AND RECOMMENDATIONS                                                            12

CORPORATION COMMENTS AND OIG EVALUATION                                                   12


TABLES

Table 1: Kenneth Leventhal's Billings and OIG Questioned Costs for Contract 700-90-0014    6

Table 2: Kenneth Leventhal’s Hourly Labor Billings and Amounts Questioned                  7

Table 3: Available Hours Versus Hours Billed for Selected Kenneth Leventhal Employees      9

Table 4: Hours Charged on Kenneth Leventhal’s Internal Billing Worksheets and Hourly
         Bill to the RTC for Selected Employees                                           10

Table 5: Kenneth Leventhal’s Out-of-Pocket Expenses Billed and Amounts Questioned         11


APPENDIXES

Appendix I: Corporation Comments                                                          13

Appendix II: Management Responses to Recommendations                                      17


GLOSSARY                                                                                  18
Federal Deposit Insurance Corporation                                                                     Office of Audits
Washington, D.C. 20434                                                                       Office of Inspector General




   DATE:            July 16, 1999

   TO:              Michael J. Rubino
                    Associate Director, Acquisition and Corporate Services Branch
                    Division of Administration




   FROM:            Sharon M. Smith
                    Director, Field Audit Operations

   SUBJECT: Kenneth Leventhal’s Billings for Due Diligence Services under Contract
            700-90-0014 and Unsigned Letter Agreement Dated May 29, 1992 (Audit Report
            No. 99-029)

   This report presents the results of an audit of Kenneth Leventhal & Company’s billings to the
   Resolution Trust Corporation (RTC) under basic ordering agreement (BOA) 700-90-0014 for
   bulk sales valuation services and an unsigned letter agreement dated May 29, 1992 (together,
   hereinafter referred to as contract 700-90-0014). This is the Office of Inspector General’s (OIG)
   fourth report on Kenneth Leventhal’s due diligence contract billings to the RTC.1 The Kenneth
   Leventhal billings addressed in this report were for work performed under the RTC’s 1992 N-1
   sales initiative.


   BACKGROUND

   The RTC’s Office of Contracts entered into BOA 700-90-0014 with Kenneth Leventhal on
   December 12, 1990. Under that BOA, Kenneth Leventhal was to provide valuation services for
   RTC assets included in large bulk sale transactions. On May 1, 1992, Bear Stearns & Company
   and Lehman Brothers (Lehman) issued a request for proposal covering three RTC sales
   initiatives. In a response to contractor questions dated May 7, 1992, Bear Stearns and Lehman
   stated that one contractor would be awarded all three securitizations:


   1
    The first report was entitled Ernst & Young Kenneth Leventhal Real Estate Group’s Billings for Due Diligence
   Services under Contract 700-93-0039-011, Task Orders 700-004 and 700-014 (audit report number 98-001, dated
   January 5, 1998). The second report was entitled Kenneth Leventhal’s Billings for Due Diligence Services under
   Contract 700-90-0014, Letter Agreement Dated January 6, 1993 (audit report number 98-074, dated July 31, 1998).
   The third report was entitled Kenneth Leventhal’s Billings for Due Diligence Services under Basic Ordering
   Agreement 700-90-0014 and Letter Agreement Dated May 26, 1992 (audit report number 99-023, dated April 22,
   1999).


                                                          2
      •   1992 C-5 for performing commercial mortgage loans, which was to be underwritten by
          Bear Stearns;

      •   1992 S-1 for special purpose properties, which was to be underwritten by Lehman; and

      •   1992 N-1 for nonperforming commercial mortgage loans, which was to be underwritten
          by Lehman.

On May 8, 1992, Kenneth Leventhal submitted technical and cost proposals that cited BOA
700-90-0014 and those three securitization transactions. On or about May 21, 1992, through
May 29, 1992, letter agreements were drafted for Kenneth Leventhal to perform due diligence of
mortgage loans included in the RTC’s 1992 N-1 sales initiative.

Neither the Federal Deposit Insurance Corporation (FDIC)2 nor Ernst & Young (E&Y)3 provided
a signed letter agreement in response to the OIG’s request. Instead, E&Y provided two unsigned
letter agreements dated May 21, 1992, and May 29, 1992. The wording contained in the second
draft agreement for the 1992 N-1 transaction was nearly identical to the wording contained in the
1992 C-5 transaction letter agreement. That agreement was signed on May 26, 1992—3 days
before the second draft agreement and 5 days after the first draft agreement. Under the second
draft agreement for the 1992 N-1 sales initiative, the RTC agreed to prorate certain leasing costs
between the 1992 C-5 and 1992 N-1 securitizations. The second 1992 N-1 draft letter agreement
provided signature lines for the Kenneth Leventhal partner-in-charge and the RTC’s Assistant
Director, Securitization, and stated that Kenneth Leventhal would look solely to the RTC for
payment of services and reimbursement of expenses. In addition to relying on the second draft
letter agreement, we also relied on the request for proposal and Kenneth Leventhal’s cost and
technical proposal for applicable contract terms.

One of Kenneth Leventhal’s core tasks was data collection and verification—reviewing loan files
and summarizing information on file abstract forms (FAF). The type of FAF required was based
on the loan type—extended loan review form for nonperforming loans and special loan review
form for special purpose loans. Contract 700-90-0014 specified that the RTC would pay for the
two FAF types using Kenneth Leventhal’s proposed not-to-exceed caps per loan. Included in the
not-to-exceed caps were hourly labor rates for five occupational categories plus reasonable
out-of-pocket expenses for travel and per diem. The contract did not specify different
not-to-exceed caps for due diligence on loans removed from the transaction versus those loans
included in the securitization transaction. Kenneth Leventhal billed the RTC for 429 loans that
were included in the sales transaction, 13 loans that were deleted after completion of valuation,
35 loans that were deleted after inclusion in the loan database, and 532 loans that were deleted
before being input into the loan database.



2
 As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the FDIC
took over its functions on January 1, 1996.
3
 Kenneth Leventhal merged with E&Y in June 1995. Because it was the successor organization, E&Y provided the OIG
with access to Kenneth Leventhal documents and addressed the audit findings. Accordingly, the OIG uses E&Y
synonymously with Kenneth Leventhal throughout this report.


                                                        3
The letter agreement specified that all required (or core) tasks were included in the not-to-exceed
fees for FAF preparation. The required tasks were specified in attachment A to the May 1, 1992,
solicitation. Those tasks included data collection, verification, aggregation, update, and
dissemination; assignment and financing statements preparation and recording; document
delivery; due diligence letter preparation; and continuing services, as needed, during the
securitization and sale. Lehman modified the solicitation on May 6, 1992, to add the core tasks
of completing abbreviated property valuations for properties on which asset recovery values
were not completed and completing engineering reports on a sample basis.

The contract included several optional tasks at different not-to-exceed caps. Those optional tasks
included net operating income analyses and deficiency cures. Contract 700-90-0014 also
provided for optional trust auditor tasks at fixed amounts, which included closing and
post-closing comfort letters.

Kenneth Leventhal’s New York, New York, office supervised the due diligence of the RTC
loans at four sites. In addition, the RTC used the services of Lehman to underwrite, securitize
(analyze the RTC’s inventory of assets, assess investor markets, and structure sales packages),
market, and sell the mortgage loans included in the 1992 N-1 sales initiative.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether Kenneth Leventhal’s billings under contract
700-90-0014 were in accordance with the contract terms and adequately supported. We
reviewed $4,860,848 that Kenneth Leventhal billed the RTC for services performed from
May 1992 through November 1992 under contract 700-90-0014 that related to the RTC’s
1992 N-1 sales initiative.

For its billings for required and optional tasks, we reviewed Kenneth Leventhal’s files and
various reports provided to Lehman to determine the number of loans included in and dropped
from the transaction. Further, we reviewed Kenneth Leventhal’s documentation supporting the
number of loans billed for various optional tasks as well as correspondence to determine whether
the RTC or Lehman had authorized those optional tasks. For subcontracted tasks, we compared
the amounts that Kenneth Leventhal paid on subcontractor invoices to the contractual limits.

For Kenneth Leventhal’s billings for additional tasks at hourly labor rates, we reviewed the
contract and correspondence that E&Y provided to determine whether the RTC or Lehman
authorized the various categories of additional tasks that Kenneth Leventhal billed. For
out-of-pocket expenses, we reviewed the billing files and supporting documentation to determine
whether the RTC had authorized those expenses. We reviewed the files that E&Y provided for
written evidence of any contract modifications or authorizations to perform additional services
beyond the specified core tasks. We also requested Lehman to provide any documents
evidencing cost modifications to the contract and reviews of the fees charged by Kenneth
Leventhal. However, Lehman was unable to provide any documents on those matters.




                                                 4
E&Y did not provide employee time sheets, activity billing codes that corresponded to the hourly
tasks billed, billing instructions to employees concerning the hourly tasks, manual or electronic
project management databases, or site manager notes concerning additional services billed.
E&Y provided three separate sources of hours worked by Kenneth Leventhal employees—
schedule of total hours by individuals, weekly time-analysis reports, and internal billing
worksheets—each with a different total. The schedule of total hours by individual showed
38,635 total hours, weekly time-analysis reports showed 34,968 total hours, and internal billing
worksheets showed 38,472 total hours. Neither the schedule of total hours by individual nor the
weekly time-analysis reports provided detailed information on hours spent performing specific
tasks. The internal billing worksheets provided (1) the total daily hours worked by employees by
activity billing codes and (2) descriptions of work performed recorded by those employees.

To further analyze the hourly billings, we selected a sample of six Kenneth Leventhal employees
and summarized their total hours by the descriptions of work performed, as listed on the internal
billing worksheets. We then determined the total hours available for each employee to work on
hourly tasks and compared those available hours to the hourly tasks that Kenneth Leventhal
billed for those employees. However, the hours and descriptions of work performed on the
internal billing worksheets could not be reconciled to the hours and tasks that Kenneth Leventhal
billed to the RTC.

Between November 17, 1998, and May 3, 1999, the OIG repeatedly requested E&Y to provide
billing system documentation, make current supervisory personnel available for interviews, and
provide addresses and telephone numbers for former supervisors who worked on contract
700-90-0014. However, as of May 14, 1999, E&Y had not provided the requested
documentation or access to interview current E&Y or former Kenneth Leventhal personnel.
E&Y responded that it had difficulties locating documentation and arranging meaningful
interviews and that limited resources prevented it from responding until it had fully addressed
previous OIG audit reports. Accordingly, the OIG interpreted Kenneth Leventhal’s internal
billing worksheets without the benefit of billing system documentation or oral explanations from
E&Y personnel. The OIG considers the lack of reconcilable documents and E&Y’s failure to
respond to our requests to be an external impairment affecting the scope of the audit.

We did not evaluate E&Y’s system of internal controls because the OIG concluded that the audit
objective could be met more efficiently by conducting substantive tests rather than placing
reliance on the internal control system. The OIG conducted the audit from August 1998 through
May 1999 in accordance with generally accepted government auditing standards.

RESULTS OF AUDIT

Kenneth Leventhal billed the RTC $4,860,848 for core and hourly tasks and out-of-pocket
expenses under contract 700-90-0014. Table 1 summarizes Kenneth Leventhal’s billings under
contract 700-90-0014 and the amounts questioned.




                                                5
Table 1: Kenneth Leventhal’s Billings and OIG Questioned Costs for Contract 700-90-0014
                              Category                                           Billed    Questioned
Hourly labor billings                                                      $1,845,788      $1,785,788
Out-of-pocket expenses                                                       1,275,227       818,312
Due diligence fees for loans included in the sale                            1,344,705             0
Due diligence fees for loans dropped from the sale                               395,128           0
Totals                                                                     $4,860,848      $2,604,100
Source: OIG analysis of Kenneth Leventhal’s bills and supporting documentation

We questioned $1,785,788 of the $1,845,788 that Kenneth Leventhal billed as hourly fees
because the amounts billed (1) were for tasks that were included in the not-to-exceed caps per
loan, (2) exceeded contractual limits, or (3) were for unauthorized tasks. We questioned
$818,312 of the $1,275,227 that Kenneth Leventhal billed as out-of-pocket expenses because the
amounts billed (1) exceeded contractual limits, (2) were for unauthorized expenses, or (3) were
unsupported.

Based on our audit, the OIG recommends that the FDIC’s Associate Director, Acquisition and
Corporate Services Branch, Division of Administration, disallow $2,604,100 of questioned fees
and expenses paid to Kenneth Leventhal under contract 700-90-0014.


UNALLOWABLE HOURLY LABOR BILLINGS

Kenneth Leventhal billed the RTC $1,845,788 in hourly labor fees. Of that amount, the contract
allowed a flat fee of $60,000 for preparing the agreed-upon-procedures letter. We questioned the
remaining $1,785,788 because the amounts billed were for either required tasks included in the
not-to-exceed caps per loan or additional services for which Kenneth Leventhal had no written
authorization. Table 2 summarizes Kenneth Leventhal’s hourly labor billings and the amounts
questioned.




                                                        6
Table 2: Kenneth Leventhal’s Hourly Labor Billings and Amounts Questioned
                                   Category                                 Billed     Questioned
    Bidder packagea                                                      $ 686,631     $ 686,631
    Investor-related tasksb                                                 351,151      351,151
    Preparation costs associated with valuation methodologya                297,618      297,618
                            a
    Database/valuation                                                      109,504      109,504
                                               a
    Extra requirements and costs at sites                                   108,249      108,249
    Agreed-upon-procedures/private-placement memorandumc                      96,920      36,920
    Rating-agency requestsb                                                   68,110      68,110
    Site inspectionsa                                                         52,915      52,915
    Management/administrative costsb                                          51,255      51,255
    Additional assignment costsa                                              23,435      23,435
    Total                                                                $1,845,788    $1,785,788
a
    Required task included in the not-to-exceed caps per loan.
b
    Additional services that were not authorized.
c
    Optional task bid as a flat fee.

Source: OIG analysis of Kenneth Leventhal’s bills and supporting documentation.



The contract’s scope of services defined the required or core tasks that were included in the
not-to-exceed caps per loan. Contract 700-90-0014 also required Kenneth Leventhal to bill any
approved services not included in the core tasks at current billing rates announced by the RTC.
E&Y did not provide any support for approval to perform services not included in the core tasks.
In addition, Lehman could not locate any documentation concerning contract modifications or
requests for services outside of core tasks.

Altogether, Kenneth Leventhal billed the RTC $1,278,352 for core tasks included in the
not-to-exceed caps per loan. Kenneth Leventhal also billed the RTC $470,516 for unauthorized
tasks and $36,920 in excess of contractual limits. E&Y provided no support that the RTC or
Lehman authorized investor-related tasks, rating-agency requests, or management and
administrative costs. In addition, although Kenneth Leventhal bid a $60,000 flat fee for
preparing an agreed-upon-procedures letter, it billed the RTC $96,920 for the letter, a difference
of $36,920. Accordingly, we questioned all amounts that Kenneth Leventhal billed as hourly
labor except for the $60,000 flat fee that Kenneth Leventhal bid for preparing the
agreed-upon-procedures letter.

In addition to hourly billings for tasks that were included in the not-to-exceed caps or were not
authorized, Kenneth Leventhal’s hourly billings were not supported by its internal billing
worksheets. The descriptions of work performed, as listed on Kenneth Leventhal’s internal


                                                            7
billing worksheets, showed that its employees spent a large percentage of their time working on
core and nonbillable tasks rather than on the hourly tasks billed.

For example, the internal billing worksheets for the partner-in-charge showed that he spent
102.7 of 384 hours on core and nonbillable tasks, leaving 281.3 hours that could have been
devoted to hourly tasks. There were no comments on the internal billing worksheets regarding
how 91.3 of those 281.3 hours were spent. Kenneth Leventhal billed the RTC 344.5 hours for
hourly tasks for the partner-in-charge. At the partner-in-charge’s $205 an hour billing rate, the
difference between billed and supported hours totaled $12,956. Likewise, the internal billing
worksheets for a senior professional showed that 837.9 hours could have been spent on hourly
tasks, whereas Kenneth Leventhal billed 1,025.8 hours for hourly tasks for that employee, a
difference of $21,796 at $116 an hour. In addition, the internal billing worksheets for a junior
professional showed that 674.5 hours—for which there were no comments regarding how 593 of
those hours were spent—could have been spent on hourly tasks. However, Kenneth Leventhal
billed 1,119 hours for hourly tasks, a difference of $32,004 at $72 an hour. Table 3 summarizes
the hours available for each of those employees to work on hourly tasks based on internal billing
worksheet descriptions of the work performed and the hours that Kenneth Leventhal billed for
those individuals at an hourly rate.




                                                8
Table 3: Available Hours Versus Hours Billed for Selected Kenneth Leventhal Employees
                                                                  Partner-in-          Senior             Junior
        Internal Billing Worksheet Description                     Charge            Professional       Professional
Billing hoursb                                                           22.5               102.8             205.5
                            a
Due diligence hours                                                        0.0                 0.0            775.5
Hours incurred before May 21, 1992, start dateb                          22.5                  0.0               0.0
Out-of-office hoursb                                                       6.5                 0.0               0.0
Planning hoursa                                                            0.0              182.6                0.0
Status meetings hoursb                                                   51.2                  0.0               0.0
Hours identified as core or nonbillable tasksd                          102.7               285.4             981.0
Total hours on internal billing worksheets                              384.0             1,123.3           1,655.5
Hours available for hourly feesc                                        281.3               837.9             674.5
Hours billed as hourly feesd                                            344.5             1,025.8           1,119.0
Billed over available hours for hourly fees                              63.2               187.9             444.5
Hourly billing rate                                                      $205                $116                $72
Unsupported hourly labor billing                                     $12,956           $ 21,796            $32,004
Total hourly labor billing                                           $70,623           $118,993            $80,568
a
Core task.
b
    Nonbillable task.
c
    Hours available for hourly fees equals total hours less core and nonbillable hours on internal billing worksheets.
d
 Kenneth Leventhal billed some tasks as hourly, which the OIG considers as core or nonbillable tasks (e.g.,
agreed-upon-procedures and comfort letter). To avoid duplication, those tasks were not included in the hours
identified as core or nonbillable and not subtracted from the hours billed as hourly fees.

Source: OIG analysis of Kenneth Leventhal’s internal billing worksheets, bills, and supporting documentation.



Discrepancies also existed for individual tasks between the internal billing worksheets and
Kenneth Leventhal’s hourly billings to the RTC. Table 4 provides the tasks that did not
reconcile between the internal billing worksheets and Kenneth Leventhal’s hourly bill to the
RTC for the three sampled employees.




                                                              9
Table 4: Hours Charged on Kenneth Leventhal’s Internal Billing Worksheets and Hourly Bill to the RTC for Selected Employees
                                                             Partner-in-Charge                   Senior Professional               Junior Professional
                                                         Worksheet         Hourly Bill       Worksheet         Hourly Bill       Worksheet   Hourly Bill
         Description of Work Performed                    Hours              Hours            Hours              Hours            Hours        Hours
    Agreed-upon-procedures memoranduma                        33.0              41.0             110.3                40.0         89.5            0.0
    Additional assignment costs                                 2.0             15.0                0.0                0.0          0.0            5.0
    Bidder package                                            54.5              92.0                0.0             185.0           0.0          379.0
    Comfort letters                                           52.5              80.0                8.5             120.0           0.0          160.0
    Database/valuation                                          6.0             17.0                0.0                0.0          0.0           15.0
    Extra requirements and site costs                           0.0             12.5                0.0               50.0          0.0          120.0
    Investor-related tasks                                      5.0             13.0             152.8              130.0           0.0          275.0
    Management/administration costs                             3.5             15.0                0.0               40.0          0.0           40.0
    Rating-agency requests                                    16.0              10.0             101.8              131.8           0.0            0.0
    Site inspections                                            0.0             10.0                0.0                0.0          0.0          125.0
    Valuation methodology                                     17.5              39.0             461.7              329.0           0.0            0.0
    Total hours                                              190.0             344.5             835.1            1,025.8          89.5        1,119.0
a
Includes private-placement memorandum.

Source: OIG analysis of Kenneth Leventhal’s internal billing worksheets, hourly bill to the RTC, and supporting documentation.




                                                                                10
UNALLOWABLE OUT-OF-POCKET EXPENSES

Kenneth Leventhal billed the RTC $1,275,227 for out-of-pocket expenses, of which $456,915
were authorized by the RTC and supported by E&Y. We questioned the remaining $818,312
because the amounts billed (1) exceeded established contractual limits, (2) were for unauthorized
expenses, or (3) were unsupported. Table 5 summarizes the amounts billed, allowed, and
questioned for out-of-pocket expenses.

Table 5: Kenneth Leventhal’s Out-of-Pocket Expenses Billed and Amounts Questioned
                                Category                                       Billed       Questioned
Bidder packages                                                              $ 480,360       $170,570a
Site inspections                                                                  429,120     296,046b
Investor-related tasks                                                            266,697     261,697
Extra requirements and costs at sites                                              31,606      22,555c
Additional assignment costs                                                        29,245      29,245
Preparation costs associated with valuation methodology                            22,927      22,927
Database/valuation                                                                  7,026       7,026
Management/administrative costs                                                     3,806       3,806
Rating-agency requests                                                              3,710       3,710
Agreed-upon-procedures letter                                                        550          550
Math error                                                                           180          180
Total                                                                        $1,275,227      $818,312
a
    $8,019 of which is unsupported.
b
    Amount in excess of amount paid or contractual limit of $225 per loan.
c
    $4,596 of which is unsupported.

Source: OIG analysis of Kenneth Leventhal’s bills and supporting documentation.



Contract 700-90-0014 provided that out-of-pocket expenses for required tasks were included in
the not-to-exceed caps per loan. Kenneth Leventhal could bill reasonable and customary
out-of-pocket expenses for authorized additional services. Kenneth Leventhal’s proposal stated
that the not-to-exceed caps for preparing FAFs included normal out-of-pocket expenses.
Kenneth Leventhal’s transmittal letter for the 1992 C-5 letter agreement, defined normal
out-of-pocket expenses to include travel, hotel, document delivery, and messenger service
expenses. Also, the contract entitled Kenneth Leventhal to reimbursement for expenses related
to leasing space at the Midland site and the cost proposal specified a $225 not-to-exceed cap per
loan for site inspections. Further, a Kenneth Leventhal memorandum dated October 19, 1992,
provided a $5,000 allowance for copies of 1992 N-1 files that Kenneth Leventhal provided.


                                                           11
E&Y’s supporting documentation for the various billing categories showed that Kenneth
Leventhal billed $1,275,227 for out-of-pocket expenses that included such items as food,
lodging, transportation, administrative costs, title commitments, site observations, duplication
costs, and delivery services. E&Y provided adequate support for $456,915 in authorized
expenses for site leasing costs, preparing title commitments, site inspections, and photocopying
expenses. Of the remaining $818,312, E&Y did not provide approvals for $509,651 in
out-of-pocket expenses or supporting documentation for those unauthorized expenses. Kenneth
Leventhal also billed $296,046 for site inspections in excess of the amount paid or the $225 per
loan allowance. Furthermore, E&Y did not provide support for $12,615 in otherwise authorized
expenses for title commitments (billed under bidder packages) and site leasing costs (billed
under extra requirements and costs at sites) that Kenneth Leventhal billed. Accordingly, we
questioned $818,312 of the $1,275,227 that Kenneth Leventhal billed for additional
out-of-pocket expenses.


CONCLUSION AND RECOMMENDATIONS

Of Kenneth Leventhal’s $4,860,848 in invoices to the RTC under contract 700-90-0014, we
questioned $2,604,100 (53 percent) as being unallowable, of which $12,615 was unsupported.
Accordingly, we recommend that the Associate Director, Acquisition and Corporate Services
Branch, Division of Administration, take the following actions:

     (1) Disallow $1,785,788 (questioned costs) that Kenneth Leventhal billed as additional
         hourly labor fees for unauthorized tasks and required tasks covered by the
         not-to-exceed caps per loan.

     (2) Disallow $818,312 (questioned costs, $12,615 of which was unsupported) that Kenneth
         Leventhal billed for out-of-pocket expenses that were not authorized, exceeded the
         contractual limit, or were unsupported.


CORPORATION COMMENTS AND OIG EVALUATION

On June 28, 1999, the Associate Director, Acquisition and Corporate Services Branch, Division
of Administration, provided a written response to a draft of this report. The Associate Director’s
response agreed with the recommendations and provided the requisites for a management
decision on both recommendations. The response is not summarized because the actions planned
or completed are identical to those recommended. The Associate Director’s response is
presented as appendix I to this report. Appendix II presents management’s proposed actions on
our recommendations and shows that there is a management decision for each recommendation
in this report.

Based on the audit work, the OIG will report questioned costs of $2,604,100 (of which $12,615
is unsupported) in its Semiannual Report to the Congress.




                                               12
                                                                                              APPENDIX I


                                        CORPORATION COMMENTS


FDIC
Federal Deposit Insurance Corporation
Washington, D.C. 20429                                           Division of Administration




DATE:                               June 28, 1999

MEMORANDUM TO:                      Sharon M. Smith
                                    Director, Field Audit Operations
                                    Office of Inspector General




FROM:                               Michael J. Rubino
                                    Associate Director
                                    Acquisition and Corporate Services Branch

SUBJECT:                            MANAGEMENT DECISION
                                    Draft Report Entitled “Kenneth Leventhal’s Billings for Due
                                    Diligence Services Under Contract 700-90-0014 and Unsigned
                                    Letter Agreement Dated May 29, 1992”



The Acquisition and Corporate Services Branch (ACSB) has completed its initial review of the
subject Office of Inspector General (OIG) draft report. Our review focused on those
recommendations in the report that would be entered into the Internal Review Information
System (IRIS). The management decision is presented in three parts: (1) the Executive
Summary; (2) Management Decision detail; and (3) an Office of Internal Control Management
working summary, presented as Exhibit A.

EXECUTIVE SUMMARY

The following table represents an overview of the management decision. A more comprehensive
summary of the decision that details specific areas of agreement or disagreement with the
findings and describes necessary corrective actions, including milestone dates, is presented in the
table below.


                                                     13
   Finding #               Finding Description        Questioned    Management     Recovery        Difference
                                                        Costs        Response       Amount

   1           Unallowable Hourly Labor Billings    $1,785,788     Agree         $1,785,788   $0


   3           Unallowable Out-of-Pocket Expenses   $818,312       Agree         $818,312     $0




MANAGEMENT DECISION

FINDING # 1: Unallowable Hourly Labor Billings

CONDITION: E&Y billed $1,845,788 in hourly charges. OIG questions $1,785,788 of that
amount because it says the amounts billed were for either required tasks included in the not-to-
exceed caps per loan or additional services for which E&Y had no written authorization.

RECOMMENDATION: The FDIC should disallow $1,785,788 billed as additional hourly
labor fees for unauthorized tasks and required tasks covered by the not-to-exceed caps per loan.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow E&Y an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Legal Division, we will review the circumstances
surrounding this overpayment. We will consider our legal position and determine how much of
the questioned costs to attempt to recover. We will then take appropriate measures to resolve the
questioned costs.

FINDING # 2: Unallowable Out-of-Pocket Expenses

CONDITION: E&Y invoiced $1,275,227 for out-of-pocket expenses, of which $456,915 were
authorized by RTC and supported by E&Y. OIG questioned the remaining $818,312 because the
amounts billed exceeded contractual limits, were for unauthorized expenses, or were
unsupported.

RECOMMENDATION: The FDIC should disallow $818,312 that E&Y billed for out-of-
pocket expenses that were not authorized, exceeded the contractual limit, or were unsupported.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow E&Y an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Legal Division, we will review the circumstances




                                                     14
surrounding this overpayment. We will consider our legal position and determine how much of
the questioned costs to attempt to recover. We will then take appropriate measures to resolve the
questioned costs.


cc:    Howard Furner
       Andrew Nickle
       Mary Rann




                                               15
                                                                          EXHIBIT A

                                      SUMMARY OF ACQUISITION AND CORPORATE SERVICES BRANCH MANAGEMENT DECISIONS


    NO.   FINDING DESCRIPTION             QUESTIONED     MANAGE-            DESCRIPTION OF CORRECTIVE ACTION                         EXPECTED    DOCUMENT
                                          COST/OTHER      MENT                                                                      COMPLETION    VERIFYING
                                           FINANCIAL    RESPONSE                                                                       DATE      COMPLETIO
                                          ADUSTMENT                                                                                                   N




1                                        $1,785,788    Agree       CORRECTIVE ACTION: We will allow E&Y an opportunity to           March 31,    Settlement
          Unallowable Hourly Labor                                 refute the OIG findings and consider whatever information        2000         Agreement
          Billings                                                 they have to provide before we decide what amount to seek to
                                                                   recover, Also, in conjunction with the Legal Division, we will
                                                                   consider the circumstances surrounding this overpayment.
                                                                   We will consider our legal position and determine how much
                                                                   of the questioned costs to attempt to recover. We will then
                                                                   take appropriate measures to resolve the questioned costs.


2                                        $818,312      Agree       CORRECTIVE ACTION: We will allow E&Y an opportunity to           March 31,    Settlement
          Unallowable Out-of-Pocket                                refute the OIG findings and consider whatever information        2000         Agreement
          Expenses                                                 they have to provide before we decide what amount to seek to
                                                                   recover, Also, in conjunction with the Legal Division, we will
                                                                   consider the circumstances surrounding this overpayment.
                                                                   We will consider our legal position and determine how much
                                                                   of the questioned costs to attempt to recover. We will then
                                                                   take appropriate measures to resolve the questioned costs.




                                                                           16
                                                                                                                                            APPENDIX II


                                          MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation
     • the specific corrective actions already taken, if applicable;

     • corrective actions to be taken together with the expected completion dates for their implementation; and

     • documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information
for management decisions is based on management's written response to our report and subsequent discussions with management representatives.

                                                                                    Expected         Documentation That                      Management
   Rec.                                                                            Completion        Will Confirm Final       Monetary        Decision:
  Number                Corrective Action: Taken or Planned / Status                  Date                 Action             Benefits        Yes or No
      1        The Associate Director, Acquisition and Corporate Services             3/31/00       Settlement agreement.     $1,785,788          Yes
               Branch, agreed with the recommendation and stated that, in
               conjunction with the Division of Legal Services, the Division of
               Administration would review the circumstances surrounding this
               overpayment and take appropriate measures to resolve the
               questioned costs.
      2        The Associate Director, Acquisition and Corporate Services             3/31/00       Settlement agreement.      $818,312           Yes
               Branch, agreed with the recommendation and stated that, in
               conjunction with the Division of Legal Services, the Division of
               Administration would review the circumstances surrounding this
               overpayment and take appropriate measures to resolve the
               questioned costs.




                                                                              17
                                           GLOSSARY


Comfort (agreed-upon-procedures) letter

A comfort or agreed-upon-procedures letter describes the sources of data and outlines each of the
major steps performed in the due diligence process.


Deficiency cure

A deficiency cure identifies correctable document deficiencies and performs a cost/benefit
analysis of alternatives to determine the recommended course of action to be taken. As directed
by the RTC, a deficiency cure also corrects the curable deficiencies.


Due diligence loan review

A due diligence loan review provides information for evaluating individual loans included in a
sale and marketing the resulting loan portfolio. A due diligence loan review accumulates large
quantities of statistical data, which are used to group the loans and facilitate their sale.


Securitized transaction

A securitized transaction is a pool of mortgage loans secured by real estate to be used as
collateral for publicly traded or privately placed securities.


Underwriter

An underwriter contracts to market and sell securities in a securitized transaction.




                                                18
